       U.S. Department of Energy
       Office of Inspector General
       Office of Audit Services




Audit Report

The Disposition of Uranium-233 at
Oak Ridge National Laboratory




DOE/IG-0834                      February 2010
                                  Department of Energy
                                    Washington, DC 20585

                                        February 18, 2010


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Disposition of
                         Uranium-233 at Oak Ridge National Laboratory”

BACKGROUND

As a result of the Department of Energy's nuclear weapons program legacy, its Oak
Ridge National Laboratory (ORNL) stores about 1.4 metric tons of uranium containing
450 kilograms of uranium-233 (U-233). The material is currently stored in a
deteriorating facility at ORNL that is over 60 years old. Because of its highly radioactive
and dangerous properties, the U-233 is stored in a shielded storage location and must be
handled in hot cells to protect workers from exposure. Since there were no
programmatic uses for the material, the Department initiated efforts to dispose of it in
2001. In 2003, however, the conferees to the Fiscal Year 2003 Omnibus Appropriations
Act authorized the extraction of thorium-229, a material that is useful in medical and
research isotope production, prior to disposal of the U-233.

In response, the Office of Nuclear Energy (NE) developed a three-phased approach for
the thorium extraction process. In October 2003, NE awarded a contract to Isotek
Systems, LLC (Isotek), to plan and design the facilities needed to extract the thorium and
process the U-233 into a stable form for storage. In November 2005, however, the
conferees to the Fiscal Year 2006 Energy and Water Appropriations Act directed the
Department to terminate thorium extraction and to transfer responsibility for management
and disposition of the U-233 to the Office of Environmental Management (EM),
effectively ending any potential for obtaining medical research isotopes from this
process. EM began managing the project and the Isotek contract, focusing on the
processing and subsequent disposal of the U-233 at the Department's Waste Isolation
Pilot Plant (WIPP). EM approved the project's $384 million performance baseline on
May 25, 2007, and authorized long-lead procurements and dismantlement activities in
preparation for facility construction. Due to the risk associated with this disposition
effort, we initiated this audit to determine whether the Department had adequately
managed the U-233 disposition project.
RESULTS OF AUDIT

The Department's U-233 disposition project had encountered a number of design delays,
may exceed original cost estimates, and will likely not meet completion milestones. In
particular, our testing revealed that:

       Despite four years of effort by EM and the expenditure of about $36 million, project
       planning and design had yet to be completed; and,
                                                  2

       The cost baseline was approved relying on inaccurate assumptions and, thus, is
       likely to be unreliable.

EM initially established the performance baseline and authorized long-lead procurements
and dismantlement activities in preparation for facility construction based on Isotek's
claim that the project's design satisfied the Department's requirement for maturity, i.e.,
the design was 60 percent complete. Even though the Department's project management
order requires the completion of a design review prior to baseline approval, EM elected
to approve the baseline, a critical project milestone, without validating the status of the
design work. EM officials told us that they had considered previous design reviews that
were completed prior to the change in project scope.

When EM ultimately completed the required design review in December 2007, some
seven months after it approved the performance baseline, it discovered that the design
was more likely in the early preliminary design stage rather than at the 60 percent design
threshold. At that point, reviewers concluded that the contractor had based portions of
the design on unverified assumptions in certain areas, and that once safety analyses were
completed, additional review and possible design rework would be required. Further, it
was not until July 2008 that the Department realized it had inaccurately assumed and
reported to Congress in February 2006 that the deletion of thorium extraction would have
very little effect on design. In fact, not extracting thorium had a significant effect on the
amount of shielding that is now required and led to considerable design changes,
including the construction of a new annex facility. EM completed another design review
in September 2009 and concluded that additional work was still needed to reach the 60
percent design stage of maturity.

Problems with Federal leadership of the project, at least in part, contributed to delays in
completing design and establishing a viable cost baseline. For example, after the
direction to abandon thorium-229 extraction, EM had not ensured that the contract with
Isotek was consistent with the new scope of work, a situation that impacted its ability to
hold the contractor accountable. Further, since taking over the project in 2005, EM had
assigned 5 different Federal project directors, with 4 different managers involved in the
first 22 months of the project. The frequency of the change in leadership contributed to
EM not providing a timely review of the contractor's preliminary design. Finally,
program officials did not ensure that the contractor implemented controls necessary for
timely completion of the design phase of the project. For example, even though it
determined in 2006 that the contractor did not have a certified earned value management
system to measure actual performance against baselines, EM did not compel the
contractor to take effective corrective action. Notably, Isotek did not have a certified
system in place until September 2009.

In addition to performance and monitoring problems, we also learned that the
project now faces additional challenges related to the radioactive constituents
believed to be contained in the U-233. Program officials indicated that
reconsideration of the design was necessitated by a January 2009 discovery that
despite previous assumptions regarding the U-233 inventory, the material did not
contain a sufficient amount of plutonium to qualify it for disposition in WIPP. In
                                          3

March 2009, EM changed the waste process and the disposition path deciding
instead to send the material to the Nevada Test Site. EM is continuing efforts to
develop a waste form that will meet the Nevada Test Site Waste Acceptance
Criteria. In addition to cost considerations, further disposition delays could
potentially increase environmental and safety risks associated with the U-233.

EM management has recently acted to provide consistent management oversight to the
project and has worked with the contractor to correct long-standing problems such as the
absence of a certified earned value management system. To address the issues described
in our report, we made several recommendations intended to increase the likelihood that
the project is completed in a timely and successful manner.

MANAGEMENT REACTION

EM concurred with the report's recommendations but noted that actions necessary to
correct issues with project leadership and management had been completed. However,
management agreed that it would closely monitor contractor performance until recent
concerns that have surfaced with the project's design and cost controls can be adequately
addressed. Specifically, recent U-233 project status reports indicate that there are still
major concerns with the contractor's final design progress, its ability to meet cost or
schedule milestones for final design, the confidence that can be placed in the contractor's
earned value management system, and concerns in the areas of design configuration
control, subcontractor oversight, and procurement. Management’s proposed actions,
designed to help ensure the contractor's design and project baseline can be successfully
completed and approved, are generally responsive to our recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Assistant Secretary for Environmental Management, EM-1
    Manager, Oak Ridge Office
    Audit Liaison, Environmental Management, EM-33
    Audit Liaison, Oak Ridge Office, SC-OR
REPORT ON THE DISPOSITION OF URANIUM-233 AT OAK RIDGE
NATIONAL LABORATORY


TABLE OF
CONTENTS


  Management of the Uranium-233 Project

  Details of Finding                                    1

  Recommendations and Comments                          4


  Appendices

   1. Objective, Scope, and Methodology                 6

   2. Prior Audit Report                                8

   3. Management Comments                               9
MANAGEMENT OF THE URANIUM-233 PROJECT

Project Design and   Despite the expenditure of about $36 million and four years of
Implementation       effort by the Office of Environmental Management (EM), project
                     planning and design had yet to be completed for the Department of
                     Energy's (Department) uranium-233 (U-233) disposition project.
                     In particular, the project had encountered a number of design
                     delays, may exceed original cost estimates, and will likely not meet
                     completion milestones. Additional design issues may develop
                     because original assumptions regarding waste constituents have
                     proven to be incorrect.

                                 Facility Design and Baseline Development

                     Although EM approved the U-233 disposition project performance
                     baseline and authorized the start of long-lead procurements and
                     dismantlement activities in May 2007, design of the disposition
                     facilities has not progressed as planned. Major factors impacting
                     performance were that the project's cost baseline was approved
                     based on inaccurate assumptions, and as such was not being used
                     by EM to manage the project at the time of our review.

                     EM approved the performance baseline and granted Isotek
                     Systems, LLC (Isotek), approval to start long-lead procurements
                     and dismantlement activities in May 2007 despite the fact that the
                     project lacked a mature design. Even though the Department's
                     project management order requires the completion of a design
                     review prior to baseline approval, EM elected to approve the
                     baseline, a critical project milestone, based on the results from
                     prior design reviews and did not validate the status of the design
                     work. These reviews were performed by the Office of Nuclear
                     Energy (NE) prior to changes in project scope that were mandated
                     by Congress in November 2005. When EM ultimately completed
                     the required design review in December 2007, some seven months
                     after it approved the performance baseline, it discovered that the
                     design was more likely in the early preliminary design stage rather
                     than at the 60 percent design stage. Reviewers concluded that the
                     contractor based portions of the design on unverified assumptions
                     in the civil/structural, mechanical and piping, and the electrical and
                     instrumentation and control areas. The review report noted that
                     once safety analyses were complete, these areas would require
                     review and potential design rework.

                     While design work had matured to some extent by July 2008, EM
                     determined that the design of components for the final processing
                     and packaging of the waste form component of the project was still
                     only about 30 percent complete. Specifically, the Department
                     realized it had inaccurately assumed and reported to Congress in



Page 1                                                                Details of Finding
                     February 2006 that the deletion of thorium extraction would have
                     very little effect on design. In fact, not extracting thorium had a
                     significant effect on the amount of shielding that is now required.
                     This resulted in significant design changes and the decision to
                     move drying and packaging operations to a new annex facility.
                     These operations were moved from the original location in
                     Building 3019A because the building structurally could not support
                     the shielding requirements. In September 2009, after an additional
                     year of effort, EM gained sufficient confidence in the design to
                     begin another review. However, EM completed that review and
                     concluded that additional work was still needed to reach the 60
                     percent design stage of maturity. The Department indicated that it
                     would not complete another life cycle cost estimate until it
                     conducts a 90 percent design review, an event expected to begin in
                     2010.

Project Management   Delays in completing the design and uncertainty about the eventual
                     cost of the project were caused, at least in part, by inconsistent
                     Federal leadership resulting in inadequate contractor oversight.
                     Additionally, EM did not ensure that the contractor's partnership
                     was properly structured to manage the project.

                                       Consistent Federal Leadership

                     Since taking over the project in 2005, EM has not ensured that
                     appropriate Federal leadership was applied to the project. Notably,
                     EM assigned five different Federal project directors in the four
                     plus years that it has managed the effort. The project was managed
                     by 4 separate directors in the first 22 months of its life. In some
                     cases, the project director had other responsibilities which
                     prevented adequate oversight of the project. An August 2006
                     External Independent Review, for example, noted that the project
                     did not have a permanent Federal project director. Rather, the
                     assistant site manager was the designated Federal project director.
                     Because of the extent of his other duties, this individual was not
                     able to devote the requisite attention to Federal project director's
                     tasks.

                     Federal project director continuity problems impacted EM's ability
                     to complete a timely review of the contractor's preliminary design
                     and to ensure that the contractor had controls in place necessary for
                     timely completion of the design phase of the project. As
                     previously noted, EM did not review the contractor's design, as
                     required by the Department's project management order 413.3A,
                     before approving the performance baseline. In fact, EM did not
                     perform the design review until seven months after approving the



Page 2                                                               Details of Finding
         baseline. Additionally, EM did not ensure that the contractor
         implemented quality assurance and earned value management
         systems. EM determined in 2006, for example, that in spite of
         specific requirements to the contrary, the contractor did not have a
         certified earned value management system to measure actual
         performance against performance baselines. The Department's
         project management order specifically conditions approval of the
         project baseline on having such a system in place. EM also did not
         ensure that Isotek took effective corrective action to resolve the
         previously observed weakness. A particularly troubling example
         of this lack of action was the fact that the contractor did not have a
         certified earned value management system until September 2009.

         Finally, EM had not ensured that the contract with Isotek was
         consistent with the scope of work actually being performed by the
         contractor, a situation that impacted its ability to hold the
         contractor accountable. Since taking over the project in
         November 2005, EM had been managing the project under the
         contract negotiated with Isotek by NE. This contract required
         thorium extraction and storage rather than the treatment and
         disposition of the U-233. It was not until September 2007 that EM
         modified the contract to properly reflect the changed scope of work
         that eliminated thorium extraction and focused work on processing
         the inventory for disposal.

                                 Contractor Structure

         Even though it assumed responsibility for managing the Isotek
         contract in 2005, EM did not act promptly to ensure that Isotek, a
         limited liability company, was organized to effectively manage the
         project. Specifically, Isotek was a partnership composed of three
         companies with no single partner having a controlling interest in
         the company until November 2007. We concluded that the lack of
         clear lines of authority in the partnership structure contributed to
         known quality assurance problems in the design phase of the
         project. Isotek had an inadequate oversight infrastructure in place
         to resolve a continuing deficiency in the design partner's
         implementation of an appropriate quality assurance program. In
         fact, it was not until September 2008 that the contractor's
         management structure was changed to better oversee the project.
         After the management restructure, Isotek acted in October 2008 to
         correct problems with the design partner, including the lack of a
         quality assurance program that they first detected in 2004.




Page 3                                                    Details of Finding
Impact on Cost    In addition to performance and monitoring problems, we learned
and Risk          that the project now faces additional challenges related to the
                  radioactive constituents believed to be contained in the U-233.
                  Program officials indicated that reconsideration of the design was
                  necessitated by a January 2009 discovery that despite previous
                  assumptions regarding the U-233 inventory, the material did not
                  contain a sufficient amount of plutonium to qualify it for
                  disposition at the Department's Waste Isolation Pilot Plant. In
                  March 2009, EM changed the waste process and the disposition
                  path to the Nevada Test Site and is continuing efforts to develop a
                  waste form that will meet the Nevada Test Site Waste Acceptance
                  Criteria.

                  As we have demonstrated in a number of contract management
                  reviews in the past, poor project administration and performance
                  frequently increase total project costs. In November 2008, for
                  example, the project's contractor proposed a revised cost baseline
                  of $477 million, a cost increase of approximately $93 million.
                  Because the project baseline was approved based on faulty
                  assumptions related to design maturity, we were unable to
                  specifically determine whether these increases will ultimately
                  materialize. EM has not approved the contractor's proposal
                  pending its decisions regarding process design changes and the
                  outcome of future design reviews, and as such, cannot determine
                  the total cost of the project. In addition to cost and schedule
                  impacts, further disposition delays also potentially increase
                  environmental and safety risks associated with U-233 identified by
                  the Defense Nuclear Facilities Safety Board in 1997.

RECOMMENDATIONS   EM management has recently acted to provide consistent project
                  management oversight to the project and has worked with the
                  contractor to correct long-standing problems such as the absence of
                  a certified earned value management system. In order to help
                  ensure the timely and successful completion of the U-233
                  disposition project, we recommend that the Assistant Secretary,
                  Environmental Management, ensure that:

                      1. Consistent and adequate Departmental leadership is
                         maintained;

                      2. The contractor's performance on the U-233 disposition
                         project provides a sound basis for final design and
                         baseline approval, as required by Departmental project
                         management orders; and,




Page 4                                                           Recommendations
                     3. Future limited liability companies have a majority
                        ownership partner and are structured to provide adequate
                        leadership over the project.

MANAGEMENT AND   EM concurred with the report and its recommendations and stated
AUDITOR          that all actions necessary to close Recommendations 1 and 3 were
COMMENTS         complete. Regarding Recommendation 1, EM stated that the
                 current Federal project director has provided consistent leadership
                 for more than 20 months. In response to Recommendation 3, EM
                 explained that they evaluate the management structure of limited
                 liability companies as an element in the Request for Proposal
                 evaluation criteria. Additionally, EM requires the limited liability
                 companies to identify a single point of contact to address contract
                 and project matters.

                 During an exit conference to discuss management's comments on a
                 draft of this report, regarding Recommendation 2, EM asserted that
                 the U-233 disposition project is currently being managed in
                 accordance with Departmental project management orders;
                 however, continuing concerns identified in the area of project
                 management were the direct result of poor contractor performance.
                 In December 2009, the Federal project director informed EM of
                 major concerns with the contractor's progress on the project's final
                 design. Specifically, the project director noted that the contractor
                 will not meet its cost or schedule milestones for final design, an
                 issue that, in our opinion, calls into question the confidence that
                 can be placed in the ability of the contractor's earned value
                 management system to keep the project on track. In January 2010,
                 additional concerns were identified in the areas of design
                 configuration control, subcontractor oversight, and procurement.

                 We clarified Recommendation 2 to more accurately emphasize the
                 role that the contractor's performance has played in project delays
                 and cost increases. As a result, EM agreed to keep
                 Recommendation 2 open until the contractor's 90 percent design
                 review and project baseline can be successfully completed and
                 approved, respectively.

                 We consider management's comments generally responsive to our
                 recommendations.




Page 5                                        Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) had adequately managed the
              Uranium-233 (U-233) project.

SCOPE         We conducted the audit from November 2008 to December 2009 at
              Department Headquarters in Washington, D.C., and the Oak Ridge
              Office in Oak Ridge, Tennessee. The audit scope included U-233
              disposition efforts since November 2005 when the project was
              transferred from the Office of Nuclear Energy to the Office of
              Environmental Management (EM).

METHODOLOGY   To accomplish the audit objective, we:

                  •   Reviewed regulations, directives, contract requirements,
                      and performance measures relating to the U-233
                      disposition project;

                  •   Determined and evaluated the current status of the U-233
                      disposition project;

                  •   Reviewed the baseline and other project management tools
                      associated with the disposition project;

                  •   Evaluated internal controls associated with the U-233
                      project;

                  •   Reviewed prior audits and reviews relating to the
                      disposition project; and,

                  •   Held discussions with key Department and contractor
                      officials responsible for dispositioning the U-233.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. The audit included tests
              of controls and compliance with laws and regulations necessary to
              satisfy the audit objective. Because our review was limited, it
              would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. The
              U-233 disposition project did not meet all of its specific




Page 6                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    performance measures in 2009 associated with the Government
                    Performance and Results Act of 1993. Also, we did not rely upon
                    computer processed data to accomplish our audit objective.

                    An exit conference was held with EM's Deputy Assistant Secretary
                    for Program and Site Support on February 3, 2010.




Page 7                                        Objective, Scope, and Methodology
Appendix 2

                                  PRIOR AUDIT REPORT


    •    Meeting Medical and Research Needs for Isotopes Derived from Uranium-233
         (DOE/IG-0795, May 2008). The Office of Inspector General determined that the
         Department of Energy (Department) would not have sufficient quantities of uranium-
         233 (U-233) and its progeny isotopes to support U.S. medical and research needs. The
         Department is the only domestic producer of progeny isotopes from U-233 and current
         production is insufficient to meet medical and scientific research needs. At present, no
         viable alternative methods of production of actinium and bismuth have been
         demonstrated or proven. U-233 also is used to support other Department missions
         such as the National Nuclear Security Administration's Test Readiness Program.




Page 8                                                                      Prior Audit Report
                            Department of Energy
                                Washington, DC 20585
                                  January 15, 2010


MEMORANDUM FOR GEORGE W. COLLARD
               ASSISTANT INSPECTOR GENERAL
                FOR PERFORMANCE AUDITS
               OFFICE OF INSPECTOR GENE~~ .

FROM:                    INES R. TRIAY          ~ ~)
                         ASSISTANT SECRETARY FOR .  (/'
                           ENVIRONMENTAL MANAGEMENT

SUBJECT:                 Draft Audit Report on "The Disposition ofUranium-233
                         at Oak Ridge National Laboratory"

This memorandum responds to your December 16,2009, memorandum requesting
review and comments on subject draft audit report (IG-32 A09ET008). The Office of
Environmental Management (EM) appreciates the opportunity to provide comments. EM
has no comments on the report.

EM concurs with all three of the recommendations contained in the draft audit report.
EM has been working closely with the Department of Energy, Office of the Inspector
General (DOE-IG) on this audit; therefore, we believe that the actions taken to date are
in-line with the recommendations received from the IG and the recommendations are
considered to be complete.

Currently, the Uranium-233 (U-233) Material Downblending and Disposition Project at
Oak Ridge National Laboratory (ORNL) is operating to the November 2008 proposed
baseline as an interim baseline until design reaches 90 percent maturity. At that time, a
new estimate and baseline change proposal will be developed.

RECOMMENDATIONS

Recommendation 1: Consistent and adequate Departmental leadership is main-
tained.

Action Plan: The current Federal Project Director (FPD) was appointed in April 2008
and has provided consistent project leadership for over 20 months. In addition, a Deputy
FPD position was added to the team in November 2008 and has been filled by the same
person for the last 14 months. This has providedproject continuity while also supporting
succession planning in the event other changes in project management (i.e., retirement,
promotion, or other career opportunity) take place.
Estimated Completion Date: Complete.




                                   Printed with soy ink on recycled paper
Recommendation 2: Project management complies with Departmental management
orders.

Action Plan: The U-233 Material Downblending and Disposition Project is currently
being managed under DOE Order 413.3. The cur~ent Federal Project Director (FPD)
was certified as a Level 3 FPD through the Project Management Career Development
Program (PMCDP) in September 2008; this is the appropriate level ofcertification for
the project. The Deputy FPD and another full-time project staffmember were certified
as Level J through the PMCDP in November 2009. To maintain certification, 60 hours
ofcontinuing education must be completed every two years.
Estimated Completion Date: Complete.

Recommendation 3: Future limited liability companies have a majority ownership
partner and are structured to provide adequate leadership over the project.

Action Plan: The approach that EM has taken with respect to limited-liability compa-
nies (LLC) is to evaluate the LLC management make-up as an element in the Request for
Proposals (RFP) evaluation criteria. This is included as part ofthe management plan.
EM-HQ also has a clause for the LLC to identify a single point ofcontact (POC) to ad-
dress contract andproject matters. With respect to the U-233 contractor, EM has en-
sured the voting rights ofIsotek Systems, LLC member companies were restructured so
EnergySolutions had majority voting rights. As a result, EnergySolutions became the
single point ofaccountability for the Department on this project.
Estimated Completion Date: Complete.

If you have any further questions, please contact Mr. Fred Butterfield of my staff at
(202) 586-3110.


cc:
G. Boyd, ORO
1. Echenberg, ORO
T. Pooler, ORO
C. Shafik, CF-1.2
D. Williams, CF-1.2
D. Chung, EM-2
F. Marcinowski, EM-3
J. Boone, EM-4.1
M. Gilbertson, EM-50
F. Butterfield, EM-51
                                                                    IG Report No. DOE/IG-0834

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
